                     U.S. DEPARTMENT OF LABOR

                    Office of Inspector General




            EFAST General Controls Need Strengthening




                                          U.S. Department of Labor
                                          Office of Inspector General
                                          Report No. 09-01-001-12-001


U.S. Department of Labor - Office of Inspector General
                                                             Date:
                                                 TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          1. The EFAST Risk Assessment Implementation and Testing
             Need Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          2. The EFAST Continuity of Operations Plan Needs
             to be Improved and Tested . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          3. NCS Management Needs to Strengthen Information
             Security Officer Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

               PWBA Comments on Draft Report




U.S. Department of Labor - Office of Inspector General
                                  ACRONYMS



     COOP        Continuity of Operations Plan

     DOL         Department of Labor

     ECP         Engineering Change Proposal

     EFAST       ERISA Filing Acceptance System

     ERISA             Employee Retirement Income Security Act of 1974

     FISCAM      Federal Information System Controls Audit Manual

     GAO         General Accounting Office

     IRS         Internal Revenue Service

     ISO         Information Security Officer

     NCS         National Computer Systems, Inc.

     NIST        National Institute of Standards and Technology

     OIG         Office of Inspector General

     OMB         Office of Management and Budget

     PBGC        Pension Benefit Guaranty Corporation

     PWBA              Pension and Welfare Benefits Administration




U.S. Department of Labor - Office of Inspector General
                                  EXECUTIVE SUMMARY


The Office of Inspector General conducted an audit of the general controls over the
Pension and Welfare Benefits Administration’s (PWBA) Electronic Filing Acceptance
System (EFAST). Our primary objective was to determine if the EFAST has adequate and
effective general controls to protect filings and prevent unauthorized disclosure or
modification of sensitive data, or disruption or denial of critical services.

Overall, we concluded that PWBA management has devoted substantial resources and
made significant progress in developing the necessary security plans, performing risk
assessments and security reviews, and coordinating complex security requirements between
the Internal Revenue Service (IRS) and its contractor, National Computer Systems,
Inc.(NCS). However, PWBA management needs to take additional action to improve the
security of the EFAST. Specifically, PWBA management needs to ensure that NCS
management (1) improves the EFAST’s Risk Assessment implementation and testing, (2)
fully develops and implements the Continuity of Operations Plan (COOP), and (3)
strengthens the Information Security Officer (ISO) position.

The EFAST Risk Assessment Implementation and Testing Need Improvement

PWBA management needs to improve the EFAST’s Risk Assessment implementation and
testing. Specifically, (1) the EFAST Risk Assessment does not cover unprocessed filings,
(2) many of the controls planned were not implemented, and (3) some of those
implemented were never tested. As a result, the EFAST is operating at a risk level that is
above the maximum acceptable level established by PWBA.

The EFAST COOP Needs to be Improved and Tested

PWBA management needs to require NCS to more fully develop and implement the
EFAST COOP. This occurred because PWBA and NCS management have devoted most
of their resources to getting the system operational and have not focused on the COOP.
As a result, while the EFAST is operational, it is highly vulnerable to disruptions, disasters,
and loss of original unprocessed Form 5500 Series filings.




U.S. Department of Labor - Office of Inspector General




                                               1
NCS Management Needs to Strengthen ISO Position

NCS management needs to strengthen its ISO position. NCS management has not
provided the necessary job description, training, or written procedures to the ISO. NCS
management has devoted its attention to implementing the EFAST and only recently hired
an onsite ISO. As a result, the ISO is not aware of security problems and is not adequately
involved in security issues.

In conducting our audit, we used the General Accounting Office’s (GAO) Federal
Information System Controls Audit Manual (FISCAM). We conducted interviews and
tests both at PWBA headquarters and its contractor locations in Kansas and Virginia. Our
audit was performed between September 12, 2000, and January 10, 2001, and was
conducted in accordance with Government Auditing Standards.

We recommend that the Assistant Secretary for Pension and Welfare Benefits improve and
test the EFAST Risk Assessment, fully implement the COOP, and ensure that NCS
improves its ISO position.

Summary of PWBA Response

In response to the draft report, PWBA generally concurred with the findings and
recommendations. PWBA had already requested and received an engineering change
proposal (ECP) from NCS that addressed many of the OIG’s findings and
recommendations. PWBA pointed out, however, that there is an administrative process
which must be followed to make these changes. Any contract modifications would have to
be negotiated by the Department’s procurement staff, and the time frames for these actions
were not within PWBA’s control.

PWBA additionally stated that the agency had already taken significant action towards
correcting the shortcomings detected by the OIG audit and has had regular discussions
with NCS on these issues. For example, PWBA conducted a security retest of the EFAST
facility that addressed many of the OIG’s findings and recommendations regarding security
controls that were either not tested or never implemented. PWBA also stated it was on
track to overhaul and test the Continuity of Operations Plan (COOP) in response to the
OIG’s finding that the COOP was not fully developed, implemented, or tested.




U.S. Department of Labor - Office of Inspector General




                                             2
PWBA’s response to the draft report in its entirety is attached to this report as Appendix
A.




U.S. Department of Labor - Office of Inspector General




                                             3
                                    INTRODUCTION


Background

The Employee Retirement Income Security Act of 1974 (ERISA), and provisions of the
Internal Revenue Code, assigned responsibility for regulating employee benefit plans to
three Federal agencies: the Department of Labor (DOL); the IRS; and the Pension Benefit
Guaranty Corporation (PBGC). Within the DOL, PWBA has responsibility for oversight
of employee benefit plans.

To meet their oversight responsibilities, all three agencies use information provided by
employee benefit plans in their annual reports. These annual reports use the Form 5500
Series for providing the necessary information. Until 2000, plans filed the annual reports
with the IRS. In August 2000, PWBA set up a new processing system for the Form 5500
Series called the EFAST.

The purpose of the EFAST is to process the paper and electronic Form 5500 Series filings
into computer-readable format and provide PWBA, IRS, PBGC, and the Social Security
Administration with comprehensive, accurate, and timely data.

To meet this purpose, in 1997 DOL
issued a Request for Proposals for the
development and operation of the
EFAST to replace the IRS process. In
September 1998, DOL awarded a
contract to NCS to develop the
EFAST system. In August 2000, the
EFAST started processing Form 5500
Series filings.

The primary EFAST facility, shown on
the right, is located in Lawrence,
Kansas. Software development by a
subcontractor is being done in Reston,
Virginia.


U.S. Department of Labor - Office of Inspector General




                                             4
PWBA management expects the EFAST to handle approximately 1.5 million Form 5500
Series returns filed annually by plan administrators and sponsors. Plan administrators file
most of these returns on paper, although PWBA management expects the percentage of
filings filed electronically to grow.

Principal Criteria

The principal criteria we used in our audit included:

       C   OMB Circular A-130: Management of Federal Information Resources.

       C   NIST Special Publication 800-12: An Introduction to Computer Security: The
           NIST Handbook.

       C   NIST Special Publication 800-14: Generally Accepted Principles and Practices
           for Securing Information Technology Systems.

       C   NIST Special Publication 800-18: Guideline for Developing Security Plans for
           Information Technology Systems.




U.S. Department of Labor - Office of Inspector General




                                              5
                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our audit objective was to determine if the EFAST has adequate and effective general
controls. These general controls include management, operational, and technical
computer security controls in place to prevent unauthorized disclosure or modification of
sensitive data, or disruption or denial of critical services.

Scope

We designed this audit to assess the effectiveness of general controls in the EFAST. We
identified, evaluated, and tested the general controls required to protect sensitive data
from the many threats that exist. These threats include, but are not limited to, fraud and
abuse, data entry errors, cyber-attacks, natural disasters, utility disruptions, and espionage.

Specifically, we evaluated controls intended to:

   • protect data, files, and programs from unauthorized access;

   • prevent unauthorized changes to systems and applications software;

   • provide segregation of duties between applications and systems programmers,
     computer operators, security administrators, and other data center personnel;

   • ensure recovery of computer processing operations in case of a disaster or other
     unexpected interruption; and

   • ensure adequate computer security administration.

We performed our work according to Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of policies and
procedures and other auditing procedures we considered necessary in the circumstances.




U.S. Department of Labor - Office of Inspector General




                                               6
Methodology

This audit applied the methodology outlined and described in GAO’s FISCAM. This
manual provides guidance and recommendations to test general controls in both General
Support Systems and Major Application Systems.

During the audit, we visited PWBA’s headquarters and the NCS operated EFAST facility
in Lawrence, Kansas. We also visited Logicon, the software developer, offices in Reston,
Virginia. We interviewed PWBA EFAST officials as well as NCS and Logicon personnel.

To evaluate the controls, we identified and reviewed PWBA’s and NSC’s general control
policies and procedures. Through this review and discussions with PWBA and NSC staff,
including programming, operations, and security personnel, we learned how the general
controls were designed to work and the extent data center personnel considered them in
place. We also reviewed PWBA’s and NSC’s systems and security software installation and
use.

Further, we tested and observed the operation of general controls over the EFAST to
determine whether they were in place, adequately designed, and operating effectively. Our
tests included attempts to obtain access to sensitive data and programs, which we
performed with the knowledge and cooperation of PWBA and NSC officials.

We held an entrance conference on September 12, 2000, and completed our fieldwork on
January 10, 2001. We held an exit conference with PWBA headquarters on February 14,
2001. At that meeting, we discussed our findings and recommendations.




U.S. Department of Labor - Office of Inspector General




                                            7
                    FINDINGS AND RECOMMENDATIONS

PWBA and NCS management have devoted large amounts of resources to the EFAST
security and have given overall system security a high priority in system development.
However, additional actions are needed to ensure that the EFAST security meets
minimum requirements for reducing risk to an acceptable level for operations. Specifically,
PWBA management needs to ensure the EFAST Risk Assessment is fully implemented
and tested, the COOP is more fully developed and tested, and that NCS management
strengthen its ISO position to reduce the EFAST’s vulnerability.




U.S. Department of Labor - Office of Inspector General




                                             8
1. The EFAST Risk Assessment Implementation and Testing Need Improvement

PWBA management needs to improve the EFAST’s Risk Assessment implementation and
testing. Specifically, (1) the EFAST Risk Assessment does not cover unprocessed filings,
(2) many of the controls planned were never implemented, and (3) some of those
implemented were never tested. PWBA management oversight emphasized getting the
system operational and did not ensure NCS management fully complied with the EFAST
Risk Assessment. Also, the EFAST Security Plan NCS officials developed set the sensitivity
level too low which contributed to the problem. As a result, the EFAST is operating at a
risk level that exceeds the maximum risk acceptable under the PWBA contract.

Risk Assessment Requirements

OMB Circular A-130 establishes that certain Federal information systems require special
attention to security due to the importance of the system to an agency’s mission. The
Circular defines these systems as “major applications” and requires that these systems be
considered “high risk” due to their importance. This “high risk” assignment then provides
the basis for a security plan and risk assessment. PWBA management has designated the
EFAST a “major application.”

The risk assessments the Circular requires Federal agencies to develop are to identify
threats, vulnerabilities, and the effectiveness of current or proposed safeguards. The
Circular further requires these safeguards to be tested to determine if they are operational.

The contract PWBA awarded to NCS required NCS management to develop a security
plan and a risk assessment and to test the controls.

EFAST Risk Assessment Needs Improvement

PWBA management emphasized getting the system operational and did not ensure NCS
management fully implemented the controls identified in the EFAST Risk Assessment or
tested the controls to confirm they were operational.

Contributing to both the development and testing issues of the EFAST Risk Assessment
was that the EFAST Security Plan identified the EFAST as a major application but only
assigned a “medium” level of risk to the system. This contradicts OMB Circular A-130
which requires major applications such as the EFAST to be considered “high risk.”

U.S. Department of Labor - Office of Inspector General




                                              9
Security Controls Not Implemented - The EFAST requires confidentiality because it
processes sensitive tax data. It also requires integrity and reliability because of the reliance
PWBA, PBGC, and the IRS place on the system for providing information critical to each
agency’s mission. The EFAST Risk Assessment completed by NCS identified 261 separate
controls which were to be built into the EFAST to minimize risk and help ensure
confidentiality, integrity, and reliability.

However, PWBA management did not ensure NCS management implemented all controls
identified. These controls are among those selected in the EFAST Risk Assessment as a
minimum level of control necessary to provide an acceptable level of risk to the EFAST.
Since some of these controls have not been implemented, the EFAST is operating below
the minimum level of control PWBA management determined to be acceptable.

Examples of controls not implemented follow:

   • The EFAST Risk Assessment included
     installing a water drain as a protection
     against water damage. However,
     PWBA management did not ensure
     NCS personnel installed a water drain or
     other water protection, in either the
     computer room or the warehouse where
     the unprocessed Form 5500 Series
     filings are kept. Both areas contain a
     sprinkler system which could develop
     leaks and allow water into the areas
     causing damage. As shown in the
     picture to the right, the warehouse is
     used to store over a million unprocessed
     Form 5500 Series filings. These paper
     filings are easily subject to water damage
     if the presence of water is not detected.

   • The EFAST Risk Assessment states that
     any media to be reused will be


U.S. Department of Labor - Office of Inspector General




                                               10
     degaussed or overwritten. This procedure would protect the confidentiality and
     integrity of data.
   • The EFAST Risk Assessment states that a management control will be established
     to ensure that all changes to the EFAST hardware or software that could in any way
     lessen security will be reviewed and approved by the ISO. This control would help
     ensure security continuity.

   • The EFAST Risk Assessment states that all changes to the EFAST software will be
     reviewed and approved by management. However, the EFAST Program Manager,
     who has approval authority, is not documenting this approval on the required
     forms.

Controls Not Tested - In addition to some controls not being implemented, we found that
NCS officials did not test many controls identified in the EFAST Risk Assessment. While
the EFAST Risk Assessment identified 261 separate controls that NCS officials would use
in the EFAST, NCS officials actually tested 222. The remaining 39 controls were not
tested. The EFAST Risk Assessment included these 39 controls as comprising the
minimum acceptable level of control.

Examples of controls not tested include:

   • Procedures to ensure NCS management maintains accountability records for keys to
     the EFAST area doors.

   • Procedures to ensure NCS management maintains remote terminal identifiers for
     remote terminals used to access the EFAST in a protected file.

   • Procedures that require remote terminals used to access sensitive information be
     protected with physical and technical security controls. At any one time, EFAST
     has more than 50 programmers, including subcontractors, with remote access to the
     system from outside locations.

Overall, NCS management did not test a significant amount (39 of 261) of the controls
identified as the minimum acceptable level of control in the EFAST Risk Assessment and
neither PWBA nor NCS management has any assurances that these controls exist and are
functioning.


U.S. Department of Labor - Office of Inspector General




                                           11
U.S. Department of Labor - Office of Inspector General




                                     12
Conclusion

PWBA management did not ensure NCS fully implemented and tested the controls the
EFAST Risk Assessment identified as the minimum necessary as acceptable for the
EFAST.

PWBA management did, however, authorize the EFAST to start processing.
Authorization implies PWBA management is accepting the risk in the entire application,
although to this date, the EFAST Risk Assessment is incomplete and cannot ensure that
the EFAST is achieving an acceptable level of risk for processing Form 5500 Series
sensitive data. This condition exposes sensitive confidential tax information to
unauthorized disclosure, possible litigation risks, and loss.

Recommendations

We recommend the Acting Assistant Secretary for Pension and Welfare Benefits:

a. Revise the Security Plan to reflect higher risk and determine if any changes are
   necessary to the EFAST Risk Assessment to reflect the higher risk recognized.

b. Require NCS management to implement and test each control included as a minimum
   for acceptable processing.

PWBA’s Comments on Draft Report

In its response to the draft report PWBA stated:

       PWBA generally concurs with the OIG’s findings and recommendations
       regarding the EFAST security plan and risk assessment. PWBA plans to
       address these shortcomings through a combination of efforts including: revising
       the security plan and developing a risk mitigation plan to verify the applicability
       of all security controls, fully implementing the applicable security controls, and
       ensuring that all security controls established for EFAST are adequately tested.

PWBA concurred with each recommendation and stated:




U.S. Department of Labor - Office of Inspector General




                                               13
      PWBA is scheduled to update the Computer Security Plan by late June 2001
      which will designate EFAST as a high risk application. PWBA does not
      believe that any changes are necessary to the EFAST Risk Assessment to reflect
      the higher risk recognized because the EFAST Risk Assessment incorporated
      the C2 level security requirements which were determined to be appropriate.
      However, as stated above, PWBA will develop a Risk Mitigation Plan to address
      the OIG’s overriding concern that risk mitigation measures be instituted to
      address security controls that have not been tested or implemented.

      PWBA also pointed out some wording in the draft report which could be confusing or
      misleading.

OIG Evaluation of PWBA Comments

We made changes to the wording in the draft report as PWBA suggested.

PWBA responses are sufficient to resolve the recommendations. The recommendations
will be closed when the corrective actions are complete.




U.S. Department of Labor - Office of Inspector General




                                           14
2. The EFAST COOP Needs to be Improved and Tested

PWBA management has not ensured NCS management fully developed or implemented
the EFAST COOP. This is because PWBA and NCS management have devoted most of
their resources to getting the EFAST operational. As a result, while the EFAST is
operational, it is operating with high vulnerability to disruptions, disasters, and loss of
original unprocessed Form 5500 Series filings.

COOP Requirements

OMB Circular A-130 specifically requires each government entity’s major application to
have a COOP. The Circular states that a COOP should include system backup policy and
procedures and one or more recovery strategies to cover partial loss of equipment or service
due to disasters.

Also, OMB Circular A-130 and NIST Special Publication 800-14 require testing of the
COOP. Specifically, NIST Publication 800-14 Section 3.6.5 states that an organization
needs to test its COOP because there will undoubtedly be flaws in the COOP.

As required by the contract with PWBA, NCS management prepared a COOP which
PWBA management accepted on June 15, 2000. The COOP calls for recovery of any
disruption within 30 days. It analyzes the risks of operational disruption and describes the
controls and actions necessary to reduce such disruption.

COOP Needs Improvement

PWBA management, however, has not ensured that NCS management (1) developed the
COOP to cover unprocessed filings, or (2) implemented all the controls and support actions
described in the COOP. Several vulnerabilities exist that could affect the EFAST processing
and delay restoring service in case of disaster. The following sections discuss several
vulnerabilities.

Water Danger to Filings Not Covered - The EFAST COOP deals with two potential water
problems--natural flood and water supply leaks. The initial response and action procedures
cover protecting the computer equipment. These procedures do not cover protecting the
unprocessed filings. The filings are stored next to the EAST processing area. Water


U.S. Department of Labor - Office of Inspector General




                                              15
sprinklers and pipes are directly above the uncovered filing storage bins as shown in the
photograph on page 9.

NCS officials do have protective plastic sheets to cover the filings to protect them from
water damage. However, the plastic sheets were locked in a file cabinet. The sheets
consisted of four small rolls of clear plastic that appeared to cover approximately 200 square
feet. These rolls would not cover even a small fraction of the filings.

Data Backups Not Performed - The COOP requires that the EFAST databases be backed
up daily. This, however, is not being done. According to the daily backup log, NCS officials
did not do any backups from the time the EFAST processing started on July 1, 2000, until
October 18, 2000. During this time, NCS management processed more than 164,000 filings
and schedules without any backup. Additionally, according to the backup log, NCS officials
did not perform backups on 13 of the 29 work days from October 18, 2000, through
November 27, 2000.

Emergency Procedures Do Not Cover Filings - Neither the COOP nor NCS’ emergency
procedure manual includes procedures for protecting or recovering actual Form 5500 Series
filings. The emergency procedures in both documents include detailed steps to follow in
evacuating the building in case of fire, tornado, or evacuation drill. The documents also
cover steps to take to protect the system hardware and software. However, the documents
do not have procedures to guide personnel to protect the paper filings that await processing
in case of a water leak or any other emergency. If an emergency or disaster were to occur,
the actual paper Form 5500 Series filings may be subject to loss or destruction.

Alternate Processing Site Not Implemented - The COOP, as required, specifies an alternate
processing site in the event a disaster damages the EFAST facility. The COOP specifies a
particular company to provide back-up facilities and details on how that company will make
facilities available. However, NCS management has not executed a contract with this
company or even confirmed that the company is still available for back-up protection. As a
result, NCS management does not have assurances that, if the EFAST facility became
inoperable, there would be any back-up facility at all or when one could be provided.

COOP Not Tested as Required - The EFAST COOP states that NCS will test the COOP.
However, NCS management did not test the COOP as part of the overall system testing and
NCS management does not plan to perform testing at all. EFAST has been operating since


U.S. Department of Labor - Office of Inspector General




                                             16
July 1, 2000. We believe that the COOP should have been tested as part of the overall
system testing. As a minimum, NCS management should have plans as to when and how
testing will be performed. Without testing, NCS management does not have assurances that
their planned recovery procedures will be effective.

Conclusion

We concluded that the COOP needs to be improved and tested to be effective. This is
necessary to ensure that NCS personnel can quickly and appropriately respond to
emergencies and that the EFAST and its data will be adequately protected. This is
particularly true for two reasons. First, the EFAST provides necessary information for three
different agencies; PWBA, IRS and PBGC. It also provides some information to the Social
Security Administration. Therefore, although PWBA operates the EFAST, it must be
responsive to the needs of the other agencies. Secondly, in the near future the EFAST will
be providing on-line capability to PWBA, PBGC and IRS with over 300 direct users
planned. As on-line usage increases, the reliability of the system becomes more critical.
Therefore, PWBA management needs to take action to improve the EFAST contingency
planning.

Recommendations

We recommend that the Acting Assistant Secretary for Pension and Welfare Benefits
require NCS management to:

a. Revise the COOP to specifically provide for damage to the paper Form 5500 Series
   filings.

b. Implement all procedures and controls identified in the COOP, including but not limited
   to, alternate site selection and data backup.

c. Test the COOP and determine its effectiveness.

PWBA’s Comments on Draft Report

PWBA concurred with this finding and stated:




U.S. Department of Labor - Office of Inspector General




                                            17
      PWBA concurs with the OIG’s findings that the COOP has not been fully
      developed, implemented, or tested. PWBA plans to address these shortcomings
      by updating the COOP, following through to ensure that all COOP controls are
      implemented, and fully testing the COOP.

      As a point of clarification, PWBA would like to point out an inconsistency in the
      wording in the draft audit report which might be confusing or misleading
      regarding the COOP. The Executive Summary states on page 1 that “the
      EFAST COOP needs to be developed and implemented.” PWBA believes this
      statement is somewhat misleading because it implies that a COOP was not
      developed and implemented, when it was. However, in the summary of Findings
      and Recommendations, the report specifies on page 12, 1st bullet, that “PWBA
      management has not ensured NCS management fully developed or implemented
      the COOP.”

Regarding the specific recommendations, PWBA concurred and stated:

      PWBA has requested and received an ECP from NCS which covers, among
      other things, the upgrading of the EFAST facility to protect against sprinkler
      mishap. We are acutely aware of the need to protect unprocessed paper filings
      from water damage arising from sprinkler mishap. To address this potential
      hazard, the ECP contains several important enhancements to the water sprinkler
      system. Specifically, NCS proposes to upgrade the sprinkler system to a pre-
      action valve, wet system in the EFAST production area and warehouse to better
      protect the EFAST 5500 forms. In the interim period prior to implementing the
      provisions of the ECP, NCS has secured and put in place sufficient plastic
      sheeting to cover the filings to protect them from water damage.

      . . . . NCS is scheduled to update and deliver a new version of the COOP to
      PWBA by late June 2001. This is a regularly scheduled update to the COOP that
      is called for in the EFAST contract. PWBA intends to notify NCS of all
      remaining COOP shortcomings identified by the OIG and will insist that all
      deficiencies are remedied in the new version of the COOP, and that the
      procedures and controls are in place, such as alternate site selection and data
      backup. This action will specifically address the OIG’s findings concerning: 1)
      data backups not performed, 2) emergency procedures do not cover filings, and
      3) alternate processing site not implemented.

U.S. Department of Labor - Office of Inspector General




                                             18
     . . . . PWBA intends to strictly enforce all contractual provisions regarding the
     COOP, such as the requirement to test the COOP per OMB Circular A-130 and
     NIST Special Publication 800-14. Upon delivery of the final COOP in late June
     2001, PWBA will follow-up with NCS to ensure that all procedures and controls
     identified in the COOP are implemented.




U.S. Department of Labor - Office of Inspector General




                                            19
OIG Evaluation of PWBA Comments

PWBA’s concurrence is sufficient to resolve the recommendations and they will be closed
when the COOP is updated, implemented and tested. In addition, we have made changes
to the final report to clarify that PWBA had required that a COOP be developed.




U.S. Department of Labor - Office of Inspector General




                                           20
3. NCS Management Needs to Strengthen ISO Position

NCS management needs to strengthen its ISO position. NCS officials have not provided the
necessary job description or training to the ISO. Nor does NCS have written security
procedures.

OMB Circular A-130, Appendix III states that sound and effective information security
management requires that a management official be assigned responsibility for security of
the data and system. This management official needs to be knowledgeable (1) about the
information and process supported by the application and (2) in the management,
personnel, operational, and technical controls used to protect it. The Circular states that
this official shall ensure that effective security products and techniques are appropriately
used in the application. This official is to be contacted when a security incident occurs.

Moreover, NIST Special Publication 800-14 Section 2.5 states that the responsibilities and
accountability of owners, providers, and users of IT systems and other parties concerned
with the security of IT systems should be explicit.

ISO Position Needs Strengthening

NCS management has designated the ISO position to be responsible for the EFAST
security. However, the ISO does not have the necessary management tools to accomplish
the ISO duties most effectively. Specifically, NCS management has not developed a job
description to establish ISO responsibilities clearly, provided sufficient ISO training, or
written security review procedures.

No Job Description - NCS management has not developed a job description for the EFAST
ISO. This is a basic management tool needed to ensure that the ISO, the ISO’s supervisors
and other NCS and PWBA personnel understand the ISO mission, functions, and
responsibilities. An ISO job description would be an integral part of explicitly defining the
ISO responsibilities.

Also, without a job description, NCS management has not provided the ISO sufficient
authority to accomplish the ISO duties and responsibilities. While the ISO is charged with
maintaining the EFAST integrity and security, the ISO has only limited access to the
EFAST and cannot directly monitor computer security activity. For example, the ISO does

U.S. Department of Labor - Office of Inspector General




                                              21
not have a computer terminal that accesses the EFAST. The ISO must use another
employee’s terminal to do this. Also, the ISO does not have sufficient system authority to
review the on-line EFAST security log. This log is readily accessible to other EFAST
employees. The ISO relies on obtaining a printed copy of the EFAST security log each
week from the system administrator.

Training is Needed - NCS management has not provided sufficient training to the ISO
position. We reviewed the ISO’s personnel file and found that the only training NCS
management provided was a one-week security training course. While the current ISO is
highly qualified in IT systems technology, job specific training is necessary to ensure that the
ISO effectively manages security.

No Written Security Procedures - NCS does not have written security procedures. Such
procedures are needed for the ISO to follow or to inform NCS management how the
security program will function. NCS management does not have any specific procedures for
determining the frequency of security reviews or how the ISO will perform the reviews.
Other than day-to-day contact with the ISO, NCS management has no method to determine
how the ISO position will function in the EFAST environment.

These weaknesses in security management have allowed specific security problems to occur,
as discussed below.

   • During our visit to the EFAST facility, we could enter the EFAST restricted area
     without badges or authorization through an unlocked back door. Subsequently, NCS
     officials discovered two other unlocked doors that were supposed to be locked. All
     three doors had faulty locks. NCS management had not clearly identified the
     responsibility for ensuring these doors were locked.

   • The electronic filing firewall was disabled without the ISO’s knowledge. The EFAST
     accepted more than 15,000 filings without benefit of a working firewall. When NCS
     brought the EFAST online, the system would not work with its existing firewall. NCS
     and PWBA officials decided to disable the firewall and accept the electronic filings
     without the protection. They made this decision without the involvement of or input
     from the ISO who is responsible for overall EFAST security.

   • The ISO reviews the EFAST computer security log weekly, not daily as required by
     NIST Special Publication 800-14. The EFAST ISO, however, does not have

U.S. Department of Labor - Office of Inspector General




                                              22
       sufficient system access to do this. In fact, as previously noted, the ISO does not
       have a direct access to the system online. Instead, the ISO relies on the system
       administrator to furnish a printed log each week.

Conclusion

NCS management needs to improve security management to prevent these types of
incidents from occurring. Effective security management requires developing an ISO job
description, providing additional ISO security training, and developing written security
procedures.

Recommendations

We recommend that the Acting Assistant Secretary for Pension and Welfare Benefits
require NCS management to:

a. Develop a comprehensive written job description for the ISO, including delegating
   appropriate authority.

b. Provide additional security training to the ISO.

c. Develop written procedures that detail the ISO’s procedures to ensure that NCS
   management (1) maintains proper EFAST security, including physical security, and (2)
   consults or informs the ISO regarding all EFAST security changes.


PWBA’s Comments on Draft Report

PWBA concurred with this finding and stated :

       PWBA concurs with the OIG’s findings and recommendations regarding
       strengthening the ISO position. PWBA plans to address these shortcomings
       through the ECP described above, which, among other things, will bolster the
       position and update and maintain the “EFAST Security Procedures Manual.”

PWBA clarified that it had required written security procedures for EAST. PWBA stated:


U.S. Department of Labor - Office of Inspector General




                                              23
      A point of clarification is necessary regarding the OIG’s finding that “NCS does
      not have written security procedures.” As a condition of the EFAST security
      certification process, PWBA directed that NCS develop written security
      procedures that describe the duties and responsibilities of the ISO. NCS
      subsequently developed a document entitled “EFAST Security Procedures
      Manual” that describes the NCS security procedures. A draft, “working” version
      of this document was delivered to PWBA by NCS in February 2001--and it
      addresses the majority of the OIG’s concerns regarding the lack of written
      security procedures. The document will continue to be updated and maintained
      through the life of contract.

On the recommendations, PWBA stated the security-related ECP solicited from NCS included
strengthening the ISO position. The security ECP also covered the provision of additional
security training to the ISO. PWBA also stated that it would require NCS to continue to
develop, update, and maintain security procedures to ensure that NCS management (1)
maintains proper security, including physical security, and (2) consults or informs the ISO
regarding all security changes.

PWBA anticipated these actions would be completed by the end of FY 2001.

OIG Evaluation of PWBA Comments

At the time we completed out fieldwork in January 2001, NCS had not yet developed the
EFAST written security procedures.

However, we believe that these procedures, when finalized, in conjunction with other
PWBA corrective actions, are sufficient to resolve the recommendations. The
recommendations will be closed when the security procedures are finalized and approved
and the ECP process PWBA described is completed.




U.S. Department of Labor - Office of Inspector General




                                            24
                               APPENDIX A

                 PWBA Comments on the Draft Report




U.S. Department of Labor - Office of Inspector General




                                      25
